<html>
<title> - FEDERAL LANDS RECREATION ENHANCEMENT ACT</title>
<body><pre>[Senate Hearing 109-11]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-11

                FEDERAL LANDS RECREATION ENHANCEMENT ACT

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

REVIEW THE NATIONAL PARK SERVICE'S IMPLEMENTATION OF THE FEDERAL LANDS 
                       RECREATION ENHANCEMENT ACT

                               __________

                           FEBRUARY 17, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-490                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Clement, Stephanie M., Conservation Director, Friends of Acadia, 
  Bar Harbor, ME.................................................    20
Nicoll, Hill, Acting President, National Park Foundation.........    16
Salazar, Hon. Ken, U.S. Senator from Colorado....................    10
Scarlett, P. Lynn, Assistant Secretary for Policy, Management and 
  Budget, Department of the Interior.............................     3
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                                APPENDIX

Additional material submitted for the record.....................    29

 
                FEDERAL LANDS RECREATION ENHANCEMENT ACT

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The committee will come to order.
    Good afternoon. I want to welcome Lynn Scarlett from the 
Department of the Interior and our other witnesses at today's 
subcommittee hearing. Congratulations, Lynn, on your nomination 
as Deputy Secretary. I look forward to working with you in that 
capacity.
    Our purpose for the hearing today is to have an oversight 
on the National Park Service's implementation of the Federal 
Lands Recreation Enhancement Act. I cannot overstate the 
importance of the recreation fees to the National Park Service. 
Since the inception of the program, the Service has collected 
over $750 million in recreation fees. With these fees, over 
5,000 projects have been implemented to improve services and to 
protect the resources and the visiting public.
    As you know, the act was passed as part of the omnibus 
appropriations bill at the end of the 108th Congress. Hearings 
on the enabling legislation were never held in the Senate. The 
bill authorizes recreation fees to continue for 10 years in 
five bureaus, including the National Park Service. You will 
recall that the Senate bill was just for the park, and when it 
went to the House, then it was extended to include the other 
bureaus.
    The recreation fee program began as a demonstration project 
in 1997. Bureaus such as the U.S. Forest Service and the Bureau 
of Land Management began collecting fees at locations where 
fees were never charged in the past. The public questioned the 
appropriateness of certain fees. At this time, I have asked 
that criteria be developed to limit when and where the fees can 
appropriately be collected.
    The Recreation Enhancement Act includes criteria that will 
be applied during the next several months to decide which fees 
being collected under the demonstration program are allowed to 
continue, which fees will cease, and new locations where fees 
may be collected. The new law also authorizes the formation of 
advisory boards to oversee the fee program and it establishes 
an annual pass called the America the Beautiful Pass.
    The National Park Foundation has run the annual pass 
program for the National Park Service for the past 5 years. For 
a one-time fee of $50, individuals could visit national parks 
throughout the Nation without having to pay separate entrance 
fees. For an additional $15, the pass could be upgraded to 
include other public lands. The National Park Foundation has 
done a very good job, providing a high quality pass program to 
include a nationwide photo contest and outstanding marketing 
approach, while controlling the overhead and the administrative 
costs. As the National Parks Passport Pass is replaced by the 
America the Beautiful Pass, I want to make sure that the same 
visitor-oriented service and management efficiencies continue 
during the transition.
    So we thank the witnesses for being here today, and we look 
forward to hearing the testimony.
    Senator Akaka.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I look 
forward to this hearing with all of you and thank you for 
scheduling this hearing to review the National Park Service's 
plans to implement the new fee law enacted as part of last 
year's omnibus appropriations bill.
    Since only a few months have passed since that law's 
enactment, I expect we will have more questions than answers at 
this point, but I look forward to learning more about the Park 
Service's plans on this issue.
    I know the administration was eager to see the recreation 
fee demonstration program enacted as quickly as possible, and 
to do that, they went to the omnibus appropriations bill. 
However, it is unfortunate that this language was included as a 
last-minute addition by bypassing the normal legislative 
process. In this case, I am concerned that the haste to get 
this fee authority enacted has resulted in a confusing final 
product. It is my view that had this issue gone through the 
regular committee process, there would have been bipartisan 
agreement on many of the fee-related issues and would have 
resulted in a fee policy that would better serve the public.
    Of all the Federal land management agencies, the National 
Park Service's implementation of the fee policy has been 
probably the most well organized, best accepted, and least 
controversial. I continue to support, as I have for many years, 
the Park Service's ability to charge reasonable fees and, most 
importantly, to retain those fees for vital park services. I am 
pleased that the new fee law maintains that authority.
    However, other changes made by the new law may not be as 
productive. For example, one provision would replace the 
National Parks Passport that you helped created, Mr. Chairman, 
and the well-established agency-wide Golden Eagle and Golden 
Age Passports with a new America the Beautiful Pass. But the 
new law repeals the National Parks Passport program just as the 
National Park Foundation had established this very successful 
program. The new law makes no reference to continuing the Park 
Foundation's expertise on this issue and threatens to destroy 
what, in my opinion, was one of the few success stories with 
fees that the Department of the Interior had over the last few 
years.
    I would like to raise just one other point involving this 
annual pass issue. Under the previous law, the National Parks 
Passport cost $50 for unlimited park visits over a single year. 
If a passholder desires, the pass can be upgraded to a system-
wide Golden Eagle Passport so they can go to National Forests 
or Bureau of Land Management lands as well, for an additional 
$15, or a total of $65. The new law makes clear that there can 
be no other national passes other than the new America the 
Beautiful Pass. It is hard to believe that the administration 
will set the fee for this new pass any lower than the existing 
Golden Eagle Passport at $65, which means that, in effect, it 
will be an increase of 30 percent. It could be higher. This is 
a significant increase in 1 year, especially for people on 
limited incomes. Once this increase becomes apparent, I do not 
think it will be supported by the public.
    Mr. Chairman, there are clearly many questions about how 
this new authority will be implemented, and I look forward to 
hearing more about this from our witnesses this afternoon. 
Thank you very much.
    Senator Thomas. Thank you, sir.
    We will move on then to our first panel, which is the 
Honorable Lynn Scarlett, Assistant Secretary for Policy, 
Management and Budget, Department of the Interior.
    Madam Secretary, welcome.

STATEMENT OF P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY, 
       MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Thank you, Mr. Chairman, Senator Akaka, and 
other members of the committee, for the opportunity to discuss 
the National Park Service's implementation of the Federal Lands 
Recreation Enhancement Act.
    As you have noted, we are at the very early stages of 
implementing the provisions of the new law, which was signed by 
President Bush on December 8 of just last year. As we move 
forward, I want to underscore that it is important that we 
create a process and outcomes that the American public, public 
land volunteers, and our key partners, such as the National 
Park Foundation and others, embrace especially with regard to 
the America the Beautiful Pass. We want to ensure that the 
production and marketing of the new pass, indeed, that all 
aspects of the pass meet the expectations of the public and of 
partners.
    Just after passage of the new law, our interagency 
Recreation Fee Leadership council, which includes senior 
officials from Interior's agencies, as well as from the Forest 
Service, convened. The Rec Fee Council has approved an 
implementation plan and formed a steering committee to oversee 
day-to-day implementation of the new law. The plan sets forth 
time lines and designates staff with lead responsibility in 
four substantive areas. The include the national pass working 
group, fee collection and fee expenditure group, a working 
group focused on public participation and implementation of the 
recreation advisory councils, and an outreach and 
communications group. These four working groups are meeting 
regularly to ensure the smooth implementation of the new law.
    We are moving quickly to implement those portions of the 
law that set parameters for locations where recreation fees are 
permitted under the new law. This was an area of significant 
concern to the Congress. All sites that charge recreation fees 
must conform to the infrastructure and other requirements of 
the law. We have already revised fee sites to conform to the 
requirements of the new law, though this process is still in 
progress.
    For example, the Bureau of Land Management's Imperial Sand 
Dunes has eliminated recreation fees for two overlooks and a 
trailhead. The Gavin Point National Fish Hatchery no longer 
charges an entrance fee, and the Forest Service's Arapaho 
National Recreation Area no longer charges an entrance fee for 
the entire area, though it may charge a standard amenity 
recreation fee at specific localized, very developed sites. We 
anticipate that more changes will occur as we review and assess 
every recreation site on federally managed lands.
    We are also working to ensure that the revenues generated 
from fees are spent on enhancing visitor facilities and 
services as called for in the new law.
    Recreation fees, Senator Thomas, as you mentioned, over 
recent years have provided significant revenues to our national 
parks and other public lands. Under the new fee authority, we 
look forward to continuing those kinds of investments.
    Many of our visitors express a strong desire for seamless 
opportunities to visit Federal lands and, indeed, have 
expressed confusion over the proliferation of passes over 
recent years. A key component of meeting this desire for 
seamless visitor opportunities is the interagency national 
America the Beautiful Pass established by the new law. It will 
be offered as a lifetime pass to seniors for a discount and to 
disabled individuals free of charge.
    For the America the Beautiful Pass, we plan to provide 
adequate time to create a pass that generates enthusiasm and 
participation of our key partners, volunteers, and visitors to 
our public lands. We do not expect to completely transition to 
the America the Beautiful Pass until 2007.
    During 2005 and 2006, we anticipate two parallel processes. 
First, we hope to work cooperatively with the National Park 
Foundation to distribute the Golden Passes and National Parks 
Passport under our existing contract until issuance of the 
America the Beautiful Pass. Second, we plan to discuss with the 
foundation the image competition for 2007, anticipating 
implementation for the America the Beautiful Pass in 2007.
    I would like to commend the National Park Foundation for 
its outstanding efforts over the past several years to make the 
National Parks Pass successful. We would like to build on those 
experiences as we move forward.
    We have already held two listening sessions to provide the 
public and members of the recreation community an opportunity 
to share ideas prior to implementation of the America the 
Beautiful Pass, one such listening session just this week. 
Additional sessions are possible if the demand for such 
meetings is out there.
    We expect to conduct market research to gather ideas that 
will inform pricing and other production and marketing 
decisions. We will use that research to help refine objectives 
for the program and develop potential performance metrics for 
the pass, as well as to help make decisions about how to meet 
our objectives. These objectives will include elements 
identified directly from the act, such as creating an 
interagency pass that provides for seamless visitor 
experiences, but the objectives will also include less obvious 
goals, such as how to help agencies build volunteerism and use 
the pass to maintain and support our public lands.
    One issue that is generating interest is the price of the 
pass. Through our market surveys, we will examine that issue 
and come forward with a figure that we think will be acceptable 
to the public.
    I will conclude by saying that all agencies are part of the 
technical working groups that I described. The new act presents 
tremendous opportunities to continue to enhance visitor 
experiences on public lands. Implementation, however, of the 
provisions of the act is a dynamic process. We will be 
continuing to improve over time as we move forward.
    Mr. Chairman and members of the committee, we would like to 
extend our thanks to you for all of your efforts through the 
years to support park maintenance backlog, our national parks 
and our other Federal lands.
    I would be pleased to answer any questions you might have.
    [The prepared statement of Ms. Scarlett follows:]

Prepared Statement of P. Lynn Scarlett, Assistant Secretary for Policy, 
           Management and Budget, Department of the Interior

    Mr. Chairman, thank you for the opportunity to discuss the National 
Park Service's implementation of the Federal Lands Recreation 
Enhancement Act (Public Law 108-447) (FLREA). Since the bill was signed 
into law by President Bush on December 8, 2004, as part of the Omnibus 
Appropriations Act of 2005, the Department of the Interior (DOI), the 
U.S. Department of Agriculture (U.S.D.A.) and the participating 
agencies--the National Park Service (NPS), the Bureau of Land 
Management (BLM), the U.S. Fish and Wildlife Service (FWS), the Bureau 
of Reclamation (BOR), and the U.S.D.A Forest Service (Forest Service)--
have begun the implementation process. Implementation of the law is a 
multi-agency, multi-Departmental effort, but the National Park Service 
will play a prominent role, given its long history of building a 
successful recreation fee program and its experience in administering 
the National Parks Pass.
    Our federal lands provide Americans and visitors from around the 
world special places for recreation, education, reflection, and solace. 
Ensuring that the federal lands continue to play this important role in 
American life and culture requires that we maintain visitor facilities 
and services and enhance visitor opportunities. Such efforts require an 
adequate and steady source of funding that can quickly respond to 
increases in visitor demand. Recreation fee revenues are a critical 
source of such supplemental funding. FLREA will significantly enhance 
the Departments' efforts to address the deferred maintenance backlog at 
our National Parks and will enable us to better manage other federal 
lands.
    Implementation of a well-run and streamlined recreation fee program 
that maximizes benefits to the visiting public is a top priority for 
the Departments. On December 17, nine days after FLREA was signed into 
law, the interagency Recreation Fee Leadership Council (Fee Council) 
convened and approved an Implementation Plan. The Fee Council, whose 
members include key officials of both Departments, was created in 2002 
to facilitate coordination and consistency among agencies on recreation 
fee policies. Our Implementation Plan includes the creation of a 
Steering Committee to oversee day-to-day implementation, as well as 
several technical working groups for each of the key areas. The Fee 
Council created the following technical working groups:

  <bullet> National Pass Working Group
  <bullet> Fee Collection/Fee Expenditure Working Group
  <bullet> Recreation Resource Advisory Committees (RAC)/Public 
        Participation Working Group
  <bullet> Communications Working Group

    The Implementation Plan, a dynamic working document, sets forth 
preliminary implementation timelines by identifying short-term, medium-
term, and long-term tasks and designates staff with the lead 
responsibility to accomplish those tasks. The working groups are 
drafting guidance, developing detailed action plans, and discussing key 
issues to ensure compliance with the new law. One of the short-term 
tasks of the Fee Collection/Fee Expenditure Working Group is to ensure 
that all sites that charge recreation fees conform to the 
infrastructure and other requirements of the new law. Although this 
review continues, the following are examples of sites that have made 
changes to their fees under FLREA:

  <bullet> Gavin Point National Fish Hatchery (FWS) no longer charges 
        an entrance fee.
  <bullet> Arapaho National Recreation Area (Forest Service) no longer 
        charges an entrance fee for the entire area, but may charge a 
        standard amenity recreation fee at localized developed sites.
  <bullet> At Imperial Sand Dunes (BLM), recreation fees for two 
        overlooks and a trailhead were eliminated.
  <bullet> Quaker Lake Visitor Center and Lewis and Clark Visitor 
        Center (Forest Service) no longer charge for children under 16 
        years of age.

    Implementation efforts that will require longer timeframes to 
implement include establishment of RACs and the implementation of the 
America the Beautiful Pass--National Parks and Federal Recreational 
Lands Pass (the America the Beautiful Pass). Successful implementation 
requires that we provide opportunity for public input. The RAC Working 
Group will need to closely coordinate on the nominations process with 
states, counties, and the numerous recreational, tourism, and other 
groups interested in serving on the RACs.
    With regard to the implementation of the America the Beautiful 
Pass, a number of organizations have expressed both interest and 
concern. We want to ensure that the production, marketing, and 
provisions of the new pass meet the expectations of the American public 
and key partners such as the National Park Foundation, our wildlife 
refuge associations, and others. Because of significant interest by the 
public and partner organizations, the National Pass Working Group has 
hosted two ``listening sessions'' to provide the public and members of 
the recreation community with an opportunity to share ideas about the 
implementation of the America the Beautiful Pass. Additional sessions 
may be scheduled, as needed.

                          HIGHLIGHTS OF FLREA

    FLREA provides 10-year, multi-agency authority for NPS, BLM, FWS, 
BOR, and the Forest Service to charge recreation fees and reinvest a 
majority of those fees into enhancing visitor services and facilities 
at the site of collection. A 10-year authorization provides the 
certainty needed to make long-term investments in an integrated system 
and create more partnerships. Creating a multi-agency recreation fee 
program allows us to provide a more streamlined recreation experience 
for the visitor and is consistent with other efforts by the Departments 
to integrate recreation opportunities. FLREA also is consistent with 
surveys that show that visitor support of recreation fees is strong 
when the fees are reinvested to enhance visitor facilities and services 
at the site of collection.
    The recreation fee program is not new. All of the agencies with the 
exception of BOR had broad recreation fee authority under the Land and 
Water Conservation Fund (LWCF) Act of 1965 as well as under the 
Recreation Fee Demonstration Program (Fee Demo) launched in 1996. Some 
important distinctions distinguish FLREA from these earlier 
authorities. While recreation fees collected under LWCF went to the 
U.S. Treasury, recreation fees collected under FLREA are reinvested at 
the collecting site to benefit the visitor through enhanced facilities 
and services. Unlike the Fee Demo program, FLREA also limits fee 
authority to locations with specific kinds of infrastructure and 
services. For example, the BLM, Forest Service, and BOR may only charge 
fees at sites and for activities that meet certain specified criteria. 
For these agencies, certain fees may not be charged for general access, 
dispersed areas with low or no investment, undesignated parking, or 
picnicking along roadsides or trails. FLREA also requires that the 
Departments establish RACs so the local community, the recreation 
community, and the general public can provide input into fees 
established by BLM and Forest Service. The RAC Working Group has 
developed an options paper for implementing the RACs and is exploring 
how to provide interested participants an opportunity to have input 
into the process.
    FLREA recognizes that the recreation fee programs for the NPS and 
the FWS have enjoyed widespread acceptance. Hence, the law allows for a 
fee structure similar to Fee Demo to continue for these agencies. FLREA 
does make some program-wide changes, such as requiring the agencies to 
better communicate with the public on the establishment of fees and how 
fees are being used to enhance the visitor experience. We recognize 
that, through the years, inconsistent interpretation of fee authorities 
has resulted in a system that can sometimes be confusing and 
frustrating for the visitor. In implementing FLREA, we have an 
opportunity to create a more transparent recreation fee program and 
ensure that we are better addressing the expectations of the visitor.
    FLREA also provides general authority to establish fee management 
agreements with governmental or non-governmental entities. We believe 
tremendous potential exists to develop mutually beneficial partnerships 
through the recreation fee program. One example of an existing 
partnership is in Jackson Hole, Wyoming. NPS currently cooperates with 
other federal agencies, the Jackson Hole Chamber of Commerce, the Grand 
Teton Natural History Association, the Rocky Mountain Elk Foundation, 
and the Wyoming Game and Fish Department to operate the Jackson Hole 
and Greater Yellowstone Interagency Visitor Center. The partners work 
together to staff the center, provide visitor services, and develop a 
wide range of exhibits and interpretive programs for their 300,000 
visitors. Every agency has developed a number of successful 
partnerships. We look forward to working with governmental and non-
governmental entities to explore other opportunities to expand such 
mutually beneficial agreements.
    The primary change in the recreation fee program for the National 
Park Service is the expansion of the National Parks Pass into a multi-
agency America the Beautiful Pass. The new law builds upon innovations 
generated through the National Parks Pass, such as the annual image 
competition, allowing private vendor sales, and requiring active 
marketing of the pass. The new America the Beautiful Pass will retain 
the professional look and feel of the National Parks Pass, while 
creating a more streamlined pass program, reducing visitor confusion, 
and emphasizing recreation opportunities on all federal lands. 
Increasingly, our surveys and experiences show that more and more 
visitors seek interagency recreation opportunities. Many visitors have 
expressed frustration at the inability to use a National Parks Pass on 
other federal lands, or they have expressed confusion about the many 
different passes. The new national pass will overcome these problems. 
This shift aligns with other efforts by the Departments to streamline 
and integrate recreation opportunities, such as through the National 
Recreation Reservation Service and Recreation One-Stop.
    FLREA specifies that the America the Beautiful Pass will cover 
entrance fees for NPS and FWS and standard amenity recreation fees for 
the BLM, Forest Service, and BOR, generally for a period of 12 months. 
Discounts for seniors and free passes to individuals with disabilities 
will continue in a lifetime pass. The National Parks Pass, Golden 
Eagle, Golden Age, and Golden Access passes will continue to be sold 
until the new pass is made available, and existing passes will remain 
valid under existing benefits until expired, lost, or stolen. FLREA 
provides general authority to enter into fee management agreements, 
described above, as well as specific authority to enter into 
cooperative agreements concerning the development and implementation of 
the America the Beautiful Pass.
    FLREA requires agencies to develop guidelines on the price, 
distribution of revenues among agencies, benefits provided by the pass, 
marketing and design, documentation for age and disability discounts, 
and issuance of passes to volunteers. To provide consistent visitor 
services, the law requires agencies to sell passes at all units where 
entrance and standard amenity fees are charged. Administrative, 
overhead, and indirect costs are capped at an average of 15 percent of 
total revenues for the program overall. FLREA authorizes the use of 
fees collected by any of the agencies to supplement administration and 
marketing costs of the America the Beautiful Pass for five-years. 
Unobligated funds from the National Parks Pass also are authorized to 
be used to pay any outstanding costs associated with the National Parks 
Pass.
    Mr. Chairman, we recognize that changes to the recreation fee 
program under FLREA have generated some uncertainty as well as new 
hopes and expectations among federal lands visitors, partners, and 
associations. We wholeheartedly welcome the comments and ideas of these 
individuals and organizations. We want their involvement in helping us 
implement an America the Beautiful Pass program, including its 
production and marketing, which benefits the public, expands awareness 
of our federal lands, and builds additional support for federal lands.

                         HISTORY OF THE PASSES

    The purpose of recreation passes originally was to create a 
convenient system of payment for entrance fees to recreation sites 
managed by different federal agencies. To a certain extent, passes 
offer a means of providing visitors with a consistent package of 
benefits at a defined set of recreation sites. The Golden Eagle Pass, 
the current annual multi-agency national pass, was created in 1965 
under LWCF. The original price was $7, which has increased over the 
last 40 years to its current price of $65. In 1999, prior to 
introduction of the National Parks Pass, the agencies sold 
approximately 224,000 Golden Eagle Passes for revenues totaling 
approximately $11 million. In 2000, after the National Parks Pass was 
introduced, marketing of the Golden Eagle Pass declined. As a result, 
Golden Eagle Pass sales in 2000 dropped from 224,000 to 54,000 and 
revenue decreased from $11 million to $3.5 million. That same year, 
National Parks Pass sales totaled approximately 203,000 and brought in 
$10 million in revenue. During this time, the cost of the Golden Eagle 
Pass also was raised from $50 to $65 to align with price of the 
National Parks Pass. The National Parks Pass was set by statute to cost 
$50, and it seemed inconsistent to charge the same price for the Golden 
Eagle, which provided greater benefits.
    During the peak of the Golden Eagle Pass sales in 1999, the Golden 
Eagle Pass provided entry to 140 NPS sites, 32 FWS sites, 7 BLM sites, 
and 18 FS sites. Today, the Golden Eagle Pass provides entry to 150 NPS 
sites, 32 FWS sites, 18 BLM sites, and over 1500 FS sites. This 
expansion in benefits from 197 to over 1700 sites is the result of 
agencies administratively reviewing all fees and finding ways to 
improve visitor service by increasing the coverage of various passes. 
These efforts continue. Through the creation of the America the 
Beautiful Pass, FLREA provides the opportunity to combine the expanded 
benefits of the Golden Eagle Pass with the professional design and 
marketing of the National Parks Pass and to eliminate confusion over 
the various current passes.
    In 2004, in-park sales accounted for 86 percent of the sales of the 
National Parks Pass, retail partners for 6 percent, internet sales for 
7 percent, and call centers for 1 percent. Approximately 21 different 
umbrella organizations representing over 165 on-line transaction 
partnerships have promotional retail relationships, mostly consisting 
of weblinks to the National Parks Pass website. Commissions ranging 
from zero to 20 percent have been established based on sales volume and 
marketing contributions.

  IMPLEMENTATION ISSUES ASSOCIATED WITH THE AMERICA THE BEAUTIFUL PASS

    The National Pass Working Group has set a preliminary target date 
for transition to the America the Beautiful Pass for 2007. Visitor 
confusion over the passes may exist during this period, so we are 
working to ensure that the transition is as seamless as possible and 
that we provide the public with adequate information on the validity of 
existing passes as well as the availability of the America the 
Beautiful Pass.
    The National Pass Working Group has identified three broad issue 
areas: Marketing and Design, Pricing Issues, and Operational Issues. 
Sub-issues related to marketing and design include the creation of a 
marketing plan, the details of the image competition, the design of the 
pass, production of the pass, and supplementary materials that would 
accompany the pass. Sub-issues related to pricing include the price of 
the pass, policies for review and approval, documentation for 
discounts, third party sales, refunds, group sales, fraud policies, and 
pass use data collection. Sub-issues related to operations include 
inventory, accountability, ordering, shipping, handling, and 
destruction. Other issues related to multi-agency management of the 
program, such as distribution of revenues, validation, and sales 
incentives also must be addressed.
    One issue that is generating interest is the price of the pass. The 
National Pass Working Group will examine this issue very carefully, 
taking into consideration past studies and surveys, data related to 
pricing of other national passes, and the relationship to other 
recreation fees and site-specific passes. Other surveys, studies, and 
market analyses will be conducted as necessary. Another issue of 
concern is the distribution of revenues among agencies. We understand 
the distribution of revenues has a relationship to sales at sites by 
agencies. A key goal will be to ensure that the revenues from the pass 
are distributed fairly among agencies, based on the best available 
data.
    In examining these issues, the National Pass Working Group is 
reviewing the timeframes, structure, role of partnerships, and 
experience and the expertise of NPS and the National Park Foundation in 
developing the National Parks Pass. As you know, the National Parks 
Pass was created in Section 502 of the National Parks Omnibus 
Management Act (National Parks Omnibus), which passed in October 1998. 
The Act specifically allowed the Secretary to enter into agreements 
with the National Park Foundation to develop and implement the National 
Parks Pass and permit third party vendors to collect a commission. The 
NPS entered into a non-competitive contract with National Park 
Foundation. Within eighteen months after enactment of the Act, in April 
2000, the pass became available for sale. Unlike the statute 
authorizing the National Parks Pass, which mentions the National Park 
Foundation by name, FLREA does not specifically name any entities 
concerning pass development. At this time, our preliminary plan is to 
select an organization or organizations to develop and implement the 
America the Beautiful Pass through an open competition.
    The National Parks Pass program has provided useful experiences to 
build upon as we implement the America the Beautiful Pass. In 2001, 
McKinsey and Company, Inc. completed a study of the NPS recreation fee 
program. The NPS also began collecting pass use data at select parks in 
2003. Through these efforts, we have learned that:

  <bullet> Some data suggests that National Parks Passes are purchased 
        more for discounted entrance and convenience than for 
        stewardship.
  <bullet> Pricing of the pass has a direct effect on entrance fee 
        pricing.
  <bullet> A price of $50 negatively impacts revenues for higher 
        entrance fee parks.
  <bullet> Acceptance of the pass negatively impacts revenues for parks 
        that collect both a transportation and an entrance fee at the 
        time of entrance. Transportation fees are charged specifically 
        to fund required or optional transportation systems.
  <bullet> Sales, use data, and geographical use patterns should be 
        considered when developing a revenue distribution strategy.
  <bullet> Revenue incentives for field sites that sell and accept 
        passes are critical to a successful program.
  <bullet> A professionally marketed product increases sales and can 
        provide important visitor data.
  <bullet> Marketing materials should clearly identify where and when 
        passes are accepted to reduce visitor confusion.
  <bullet> Field guidance relating to protocols for ordering, 
        destruction, and reporting should be clearly established and 
        conveyed during implementation.
  <bullet> Contracts or agreements to produce and market the pass must 
        provide very specific performance parameters and administrative 
        guidelines for the pass.
  <bullet> Close coordination among agencies and with any third-party 
        entities involved in the image competition, design, production, 
        marketing, and fulfillment processes is imperative.

    While the Departments plan to move as expeditiously as possible 
toward implementation, our primary goal is to create a high-quality, 
well-thought-out, visitor-friendly pass program that is 
enthusiastically embraced by partner organizations and the public. 
Creating a successful pass program will require us to address many 
complex issues. We plan to carefully consider our past experiences, the 
National Park Foundation's expertise in the development of the National 
Parks Pass, various studies conducted by the agencies on passes and the 
recreation fee program, and feedback from members of Congress, the 
recreation community, and the general public. The ``listening 
sessions'' sponsored by the Departments were designed to provide an 
open forum for such a discussion. We look forward to continuing the 
dialogue with any interested parties as the Departments move forward on 
implementation.
    The recreation fee program is vital to our ability to meet visitor 
demands for enhanced facilities and services on our federal lands. The 
Departments view the passage of FLREA as the beginning of an important 
opportunity to create a sensible, visitor friendly, efficient 
recreation fee program. We view FLREA as a dynamic program that 
responds to lessons learned and builds on success stories. We welcome 
the opportunity to work with you toward this end.
    Mr. Chairman, we would like to extend our thanks to you for all of 
your efforts through the years to support our National Parks and other 
federal lands. I would be pleased to answer any questions you or other 
members of the Subcommittee may have.

    Senator Thomas. Since you are the only one on this panel, 
if you need to take a little more time----
    Ms. Scarlett. That is all right. It might be better just to 
have the give and take of questions.
    Senator Thomas. All right. Before we do that, I will call 
on the Senator from Colorado to see if you have any opening 
comments, sir.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Senator Thomas, and 
thank you, Ms. Scarlett, for appearing before the committee 
today.
    My concern--and maybe this will lead to an answer from 
you--has to do with how we are funding access to our public 
lands around the West. Where I come from in Colorado, we have 
huge public land resources that we value and that we treasure. 
In my former days as executive director of the Department of 
Natural Resources, we had an ongoing debate in my State about 
what kinds of investments we ought to be making as a State in 
facilities that were owned for State parks. At that time in 
Colorado, we had a division between what the general fund would 
provide for our State park system, which was essentially 30 
percent general fund, and then 70 percent that we would 
generate from fees. Now over the last several years, because of 
budgetary issues and the philosophy of my Governor and others, 
that has changed. So now we have gone to a system in Colorado 
where State facilities at parks are funded exclusively through 
fees, and there is no support from the general fund.
    The concern that I had with that process is that I thought 
it limited access to public lands and to public facilities by 
people who would otherwise want to use those facilities. Also, 
it created an unnecessary burden on people who wanted to come 
and use park facilities and simply could not afford them.
    In any event, I am wondering, given the fact that these 
issues are so big for us in the West, I think that we need to 
be very thoughtful about how we move forward in a process that 
ultimately ends up creating a fee for access to our public 
facilities. Just based on the legislative history of the 
America the Beautiful Pass, I am not certain that you have 
gotten to the point where I am at all comfortable with where 
you are and where the Department of the Interior and the 
related agencies intend to proceed on this matter.
    Senator Thomas. Thank you.
    We will take some questions now. Are you aware yet of any 
specific sites where fees have been collected that were in the 
demonstration project that under this program will no longer be 
applicable?
    Ms. Scarlett. Yes, Senator. We have asked immediately all 
of our agencies to inventory their sites and look at them for 
conformity with the new statute. As a result of that, the Fish 
and Wildlife Service has eliminated fees at one fish hatchery. 
The national forests have eliminated fees, as I mentioned, at 
Arapaho National Forest, although they may be exploring having 
a fee at a specific location where there is a highly developed 
infrastructure. The Bureau of Land Management has eliminated 
fees at two overlooks at Imperial Sand Dunes, and the Forest 
Service has also eliminated some fees. They were charging fees 
for students, and the new law requires that no fees be charged 
for people 16 and under. So they have eliminated some of those 
fees.
    We expect some additional changes. The Forest Service 
itself has 1,500 sites, and they are inventorying them one by 
one.
    Senator Thomas. They are going to be charging at 1,500 
different sites?
    Ms. Scarlett. There are 1,500 specific sites where the 
Forest Service has some fee. Now, that could be an individual 
location within a large forest.
    Senator Thomas. Of course, as you know, the basis of some 
of the controversy was that if anybody wanted to just walk on 
the forest somewhere, that the fee was not appropriate, and we 
hope that that is the case when this is finished, that there is 
some kind of a visitors development, a visitors facility that 
would justify the fee.
    You talked quite a bit about the pass. When will the 
implementation of the basic law go into place?
    Ms. Scarlett. We anticipate that the new pass, the America 
the Beautiful Pass, would actually start in 2007. The reason 
for that time line is several-fold. First, there is a long lead 
time. The law does call for the photo contest, the image 
contest, and there is a long lead time, 1 year to 18 months, to 
actually effectively do that. Second, as we have heard issues, 
concerns, and uncertainties by the public, we felt it very 
important to have a public process, and hence we have been 
having listening sessions. So we will be transitioning, 
continuing with the existing pass through the next year and a 
half and then starting with the new pass in 2007.
    Senator Thomas. But all the entrances are not by passes.
    Ms. Scarlett. That is correct.
    Senator Thomas. You can go in and buy one entrance fee. 
When will that begin then?
    Ms. Scarlett. The single entry fees are effective right 
away. For the most part, those fees either are already being 
charged. 60 percent of park sites have some sort of fee. To 
Senator Salazar's comment, about 11 percent of BLM locations 
have fees, 89 percent do not. Those will continue but we will 
pull out of that any that do not conform with the law.
    Senator Thomas. Good.
    Ms. Scarlett. And that right away. Our goal is to do that 
immediately.
    Senator Thomas. I think there is a 15 percent limitation on 
the use of these dollars for administrative fees. Is that 
correct?
    Ms. Scarlett. That is correct.
    Senator Thomas. Is that a reasonable level? Can you achieve 
that?
    Ms. Scarlett. Right now between the different agencies, 
their administrative overhead costs, if you will, range from 13 
percent to 21 percent. However, as we have looked at this in 
the wake of passage of the act, we find that they are counting 
different things as overhead. So the first thing that we are 
going to do is to do a kind of data definition on what 
constitutes indirect costs, then tally up what those are. I 
think at this point we feel reasonably confident that 15 
percent is reasonable, but we will know a little bit more when 
we finish that data process.
    Senator Thomas. I suppose there are ways, as you say, to 
put different things into it, but it does seem as if that is 
very adequate for simply the collection of the fees.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
also welcome you here and congratulate you for what has been 
happening recently with respect to your nomination.
    As I mentioned in my opening statement, one of the concerns 
I have is the likely increase park visitors will have to pay 
for an annual pass under the new fee program. After reviewing 
your written testimony, I am even more concerned that there 
will be significant increases in the cost of an annual pass. Am 
I correct in assuming that the administration will not set the 
price of the new pass below the $65 currently charged for a 
Golden Eagle Passport and, based on your testimony, may 
consider an even higher annual fee?
    Ms. Scarlett. Senator, we have not determined what the fee 
for the America the Beautiful Pass will be and, in fact, are 
very cognizant of the need to ensure complete accessibility and 
affordability. Consequently, we will be doing some marketing 
studies and research before we actually set the fee.
    I will add that the new law does also provide for some 
regional passes that could be very beneficial to the public and 
also be available at very affordable cost. For example, if you 
live right here in the metropolitan D.C. area and you want to 
go to the George Washington National Forest to places that 
might have infrastructure and visitor services or to 
Shenandoah, one prospect would be that you would have a 
regional pass at very affordable cost for that. So we envision 
a spectrum of opportunities, as well as, of course, the ongoing 
ability to just go to a site-specific place and have the 
entrance fee.
    But affordability is very much front and center stage, and 
I would like to reassure you that we certainly do not want to 
do anything that adversely affects visitation.
    Senator Akaka. I asked that question because I was 
concerned about how we would justify it to the 400,000 people 
who purchased National Parks Passes last year, that they must 
pay 30 percent more. But as you said, it has not been set.
    Ms. Scarlett. Correct.
    Senator Akaka. By almost everyone's account, the National 
Parks Pass has been one of the Park Service's success stories, 
as I mentioned, in recent years, with sales about double what 
they were when the pass was created. Visitors who wanted the 
option to access other Federal lands had the option of 
upgrading to a Golden Eagle Passport, and those who were 
content with visiting only parks could stay with the National 
Parks Pass. Will you please explain why it is a good idea to 
take away the visitor's choice in this matter and force them to 
pay a higher fee, if the fee is higher?
    Ms. Scarlett. Senator, over the last several years, as we 
have operated the recreation fee demo program, one of the 
things that became increasingly clear as we did visitor surveys 
was that many visitors were very confused about the 
multiplicity of passes. We probably had actually more 
complaints about people who would buy a National Parks Pass and 
then not understand that there were different Federal agencies 
that managed different lands, and they would show up at the 
Forest Service and think that the Park Pass was applicable 
there. So that complexity and confusion was a significant 
driver behind ultimately our support for the America the 
Beautiful interagency pass. We thought it would reduce that 
confusion and still give a very affordable option, coupled with 
some of these regional options, and then of course, site-
specific fee options.
    Senator Akaka. The Park Service has indicated it spent 
about $1 million to set up the National Parks Pass program. Do 
you have any estimate as to what it will cost to create this 
new pass program?
    Ms. Scarlett. I do not have estimates at this time. Our 
technical working group is just getting underway. We do hope to 
build significantly from the experiences that we have had both 
with the Golden Eagle Pass and the National Parks Pass so that 
we do not reinvent the wheel. But at this time, I would not 
have a dollar figure for you.
    Senator Akaka. My time has expired, Mr. Chairman.
    Senator Thomas. Senator Salazar.
    Senator Salazar. Thank you very much, Mr. Chairman and 
Senator Akaka.
    Ms. Scarlett, let me just ask a question about how the 
division of funds collected will take place among the different 
four or five agencies that are actually involved in the pass. 
First of all, where will the money come to? Who will be the 
collecting agency? Will it be the Foundation? Will it be 
Interior? And then second of all, how will the determination be 
made as to how the money goes out to the various agencies?
    Ms. Scarlett. I hate to sound like a broken record here, 
but we have not determined those technical details yet. We have 
a working group addressing specifically that issue. But let me 
step back and give you some of the principles under which that 
working group is moving forward.
    It is absolutely imperative, we think, that as fees are 
collected, they do, of course, go back on the ground where the 
visitation is occurring. That has been a significant issue that 
we have heard from the public. They are happy to pay fees as 
long as it is getting back on the ground.
    We do have some experience both with the National Parks 
Pass and the Golden Eagle Pass in trying to allocate those 
national passes rather than the site-specific fees. We will be 
building from that experience and probably it will be based on 
a combination of where the visitation is occurring, as well as 
where the pass is purchased, but the idea is to get the fees 
fairly and equitably allocated primarily where the visitation 
is occurring.
    Senator Salazar. How will the revenue that comes in and 
then goes out be divided between administrative costs and costs 
of personnel and capital construction expenses within the park 
facilities or other facilities that are within the list?
    Ms. Scarlett. The provisions of the law actually restrict 
the overhead, the administration to 15 percent of the revenues 
collected. So we will be striving to conform. Well, we will 
conform to those provisions. The remainder, as was the case 
with the previous fee demo moneys, would be distributed 80 
percent to the individual sites and then 20 percent can be 
retained for distribution more broadly across the land 
agencies. That is for the site-specific fees.
    For the pass distribution, apart from the administration 
costs, that is precisely the formula that we will be working 
out, but it will be based on visitation and related kinds of 
factors, where is the visiting occurring, where are the passes 
being purchased, and allocating the money to those locations.
    Senator Salazar. Ms. Scarlett, you are the representative 
here of the Department of the Interior, and I look forward to 
considering you for your new position very soon in the 
confirmation process.
    But in terms of the process that was used last year to get 
this legislation enacted, do you have any misgivings about how 
that legislation actually went through this Congress? My sense 
of what happened--and I was not here at the time--but looking 
back, was that not the kind of hearing that should have been 
held both in this chamber and the other chamber to get the 
concerns of the American taxpayer and user of public lands to 
determine whether or not this was a good approach to how we pay 
for facilities that we have on our public lands? I know now you 
have to move forward and you have to abide by the law, but do 
you have any misgivings about how the process went through last 
year without it having had a full hearing in this chamber?
    Ms. Scarlett. Senator, of course, we are pleased ultimately 
to have the law because for many years we had been hopeful of 
taking the fee demo program and have it on a more permanent 
footing so that we could invest in some of the technologies 
that would allow us to apply the fee program better and so 
forth. So on the one hand, we are certainly pleased to have 
some certainty now in the fee program.
    On the other hand, I think of course all of us are 
champions of wide public participation. We did have a number of 
hearings on the House side and also a number of public meetings 
to discuss the prospect of legislation. Clearly, I know that 
the authorizing committee had some concerns about the ultimate 
approach of having it be passed through the appropriations 
process.
    Senator Salazar. My time is up. Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    It sounds as if the pass is going to be one of the more 
difficult aspects of the administration. Who is going to 
administer the pass?
    Ms. Scarlett. Senator, the working group that we have 
underway right now is comprised of each of our agencies and 
their technical experts on both fees, passes, and related types 
of activities. We have not determined yet who will actually be 
the administrator, whether it will reside in the Department of 
the Interior, indeed, perhaps even the National Park Service 
because of its significant experience, but that will be 
determined over the next several months as that group moves 
forward.
    Senator Thomas. So I presume the National Park Foundation 
will be under consideration for doing this?
    Ms. Scarlett. We are very interested in continuing to work 
with the National Park Foundation. We are very interested in 
continuing to work with them on the photo image process. We 
have a current contract with them on the National Parks Pass. 
We expect that to be extended over the next year while we get 
into gear with the America the Beautiful Pass, and then we very 
much hope that they will participate when we have the 
contracting process as we move forward.
    Senator Thomas. It is my understanding the Secretary has 
the authority to raise the fee under the law. What will be the 
role of the Congress in that?
    Ms. Scarlett. I believe that the provisions of the law do 
provide for some raising of the fees. However, there are 
several boundaries, if you will, on that. No. 1, the statute 
does create recreation advisory councils or asks us to 
establish those. And for those councils, one of their roles 
would be to review both new fee area proposals as well as fee 
changes. So we look forward to that public participation 
process.
    Second, as we currently implement our existing fee 
activities, we have relied significantly on market surveys and 
other processes because our fundamental goal here is to ensure 
a good visitor opportunity and, as Senator Salazar mentioned, 
accessibility. So we do not want to price people out of being 
able to have that visitation.
    Senator Thomas. You may have touched on this. If we get 
into the pass and the BLM visitation is 10 percent of the 
total, is there going to be a way to divide up the funding so 
that they get 10 percent of the money?
    Ms. Scarlett. That would be certainly our hope. One of the 
things that is an opportunity, as we move forward, now that we 
have a more permanent fee program, is to utilize swipe 
technology and other technologies that will allow us to know 
who is buying what where and where they are utilizing it. We 
would hope that that enables us to tailor the flow of the 
moneys.
    Senator Thomas. You are not swiping the money, are you?
    Ms. Scarlett. Not swiping the money, just the card.
    [Laughter.]
    Ms. Scarlett. But to enable us to get the moneys where 
people really are utilizing the passes and paying the fees.
    Senator Thomas. So, as I understand it, you will be working 
on this. You will have some public hearings, some opportunity 
for public input as you go through, and will really conclude 
and be able to implement this in 2007.
    Ms. Scarlett. That is correct. As I said, we have had two 
listening sessions already with the public, and if there is 
additional demand, as we move forward, we will continue to have 
a very open public process.
    Senator Thomas. Good. I think, obviously, there are a 
couple of things that most of us are concerned about. I believe 
that the taxpayers should support the main cost of the parks, 
but those who visit have some additional responsibility because 
they are the ones that are enjoying it. On the other hand, the 
visitations of just going onto the forest or so on should not 
be charged, and I hope that that will be generally the outcome 
of what you do.
    We have a vote, guys. How are we going to do this? Do you 
want to take a break and do that? All right. Do you have any 
more questions for the Secretary?
    Senator Salazar. No.
    Senator Akaka. No.
    Senator Thomas. If not, could we have a few-minute recess. 
We will run and vote and come back. Then we will have our 
second panel. So we stand in recess.
    [Recess.]
    Senator Thomas. We will, I think, go ahead and start. If 
they show up, that will be great. I think that was the last 
vote for a week, so people may disappear. So hurry.
    [Laughter.]
    Senator Thomas. Thank you very much for being here. Jill 
Nicoll, acting president of the National Park Foundation, and 
Ms. Stephanie Clement, conservation director, Friends of 
Acadia, from Bar Harbor, Maine. Welcome, ladies.
    Jill, would you like to begin.

          STATEMENT OF JILL NICOLL, ACTING PRESIDENT, 
                    NATIONAL PARK FOUNDATION

    Ms. Nicoll. Thank you, Mr. Chairman. My name is Jill 
Nicoll, and I am the acting president of the National Park 
Foundation. I would like to thank you for the opportunity to 
appear today before this committee to comment on the 
implementation of the Federal Lands Recreation Enhancement Act 
for the National Park Service.
    The National Park Foundation was chartered by Congress in 
1967 and our mission is to strengthen the enduring connection 
between the American people and their national parks. We do 
this by raising private funds, making strategic grants, 
creating innovative partnerships, and increasing public 
awareness. All of this is wrapped into the National Parks Pass 
program that we currently operate.
    Over the past 8 years, the National Park Foundation has 
enjoyed substantial growth with $217 million worth of grants 
and program support to national parks across the country. Our 
growth has been achieved with fund raising and administrative 
costs kept to a minimum. We are proud to say that Money 
Magazine has just recognized the National Park Foundation as 
one of eight charities best at maximizing the percentage of 
donations going directly to programs supported.
    I will start on the National Parks Pass by covering a brief 
history of our involvement.
    In January 1998, the Secretary of the Interior and the 
Director of the National Park Service requested that the 
National Park Foundation undertake a strategic marketing study 
of the potential sale of the then Golden Eagle Passport outside 
of national parks. After the historic passage of the National 
Parks Omnibus Management Act of 1998, sponsored by the 
honorable chairman here today, the National Park Foundation 
entered into a contractual agreement with the National Park 
Service to implement and operate the National Parks Passport 
program. The authority for this relationship was created in 
title VI, section 602 of the legislation.
    Management of the program is much like operating a small 
business. The National Park Foundation handles all level of 
production for the pass. I will direct your attention to the 
display here that shows the operational flow chart of the 
National Parks Pass program, starting with the National Park 
Service Recreational Fee Program Office. Here pass-related 
approval decisions and payments to NPF for past services are 
handled. From here the National Park Foundation handles the 
marketing, banking, image selection through a contest, 
fulfillment, data management, and printing, production. Much of 
this work is accomplished by contracting with third party 
vendors.
    It is important to recognize that under the current pass 
system, the National Parks Pass can be upgraded with the Golden 
Eagle hologram that allows entrance to the areas managed by the 
other agencies. The NPF manages this distribution with the 
other agencies currently, with Bureau of Land Management, Fish 
and Wildlife Service, USDA Forest Service, and the Bureau of 
Reclamation. All these agencies are to be included in the new 
America the Beautiful Pass.
    Following current marketing guidelines by the National Park 
Service, we have three retail partners that market and sell the 
pass directly, REI, AAA, and Eastern Mountain Sports. These are 
partners from whom the consumer can purchase the pass directly 
in their stores.
    It should also be noted that the National Park Foundation's 
management of this program does not exclude others from selling 
the National Parks Pass. We cooperate with other partners, like 
the Outdoor Industry Association, who through their member 
companies offer co-branded websites that point consumers to the 
Parks Pass purchase web page. The OIA then uses the commission 
they make from the sales to benefit consumer outreach 
initiatives to introduce more Americans to the benefits of 
outdoor activity, a model for others that would like to sell 
the National Parks Pass.
    Our corporate partners at the highest level of partnership 
with the National Park Foundation are our Proud Partners of 
America's National Parks, like Kodak and American Airlines. 
They are also involved with the pass. As you are aware, over 
the past 4 years, Kodak has generously supported the contest 
with a $2 million contribution to manage all aspects of the 
image contest. The contest this year has attracted over 40,000 
entrants.
    A concern from the National Park Service that has been a 
limiting factor on the pass is that partnering with retail 
outlets and other indirect sales channels might decrease sales 
at park gates. This perception, along with additional marketing 
limitations, has directly affected the number of retail 
partners engaged in directly selling the pass to date. To 
better understand the issue, the National Park Service 
initiated a study to track the impact of retail sales on in-
park gate sales. To date, gate sales and sales through the NPF 
have both increased steadily over the years without conflict.
    The National Park Foundation and Service have grown the 
program to the point where now over 400,000 passes a year are 
sold. While pass sales have doubled since the beginning of the 
program, there is greater potential to increase pass sales if 
there is a new approach to the marketing limitations currently 
on the pass. We applaud the new legislation for looking at ways 
to loosen some of these restrictions.
    In conclusion, the National Park Foundation looks forward 
to assisting with the transition to the America the Beautiful 
Pass created with this new legislation and playing a central 
role in the development, implementation, and marketing of the 
new pass.
    Together, over the past 7 years, the board of directors of 
the National Park Foundation, along with the Department of the 
Interior and the National Park Service, has made significant 
investments in the startup and implementation of these 
programs. These investments can be maximized to ensure a 
successful beginning and a long-term future of the America the 
Beautiful Pass that benefits national parks and all of our 
public lands. The infrastructure, as indicated by this chart, 
now exists for the new pass and we hope to have the opportunity 
to work with the pass and this committee on the future 
implementation.
    Mr. Chairman, thank you for your ongoing support of 
national parks and the National Park Foundation. Thank you 
again for the opportunity to appear before you today. I can 
answer any questions that you may have.
    [The prepared statement of Ms. Nicoll follows:]

         Prepared Statement of Jill Nicoll, Acting President, 
                        National Park Foundation

    Mr. Chairman and honorable members of the Subcommittee, my name is 
Jill Nicoll and I am the Acting President for the National Park 
Foundation. The National Park Foundation was chartered by Congress in 
1967 to encourage private philanthropic support of America's National 
Parks. Thank you for the opportunity to appear today before this 
subcommittee to comment on the implementation of the Federal Lands 
Recreation Enhancement Act for the National Park Service.
    The mission of the National Park Foundation is to strengthen the 
enduring connection between the American people and their National 
Parks by raising private funds, making strategic grants, creating 
innovative partnerships and increasing public awareness. Over the past 
eight years NPF has enjoyed substantial growth: over $239 million in 
contributions and $217 million in total grants and program support to 
National Parks across the country. The Foundation's growth has been 
achieved with fundraising and administrative costs kept to a minimum--
Money Magazine just recognized the NPF as one of eight charities best 
at maximizing the percentage of donations going directly to programs 
supported.
    Before I delve into the details of my testimony I want to note that 
the history and current practices of the National Parks Pass serve as 
an obvious model for the new America the Beautiful--National Parks and 
Federal Lands Pass created in this new legislation. The testimony I am 
about to give should be seen as a way to frame the discussion around 
the development of the new Pass and the NPF's role in reaching the 
goals established by the new legislation.

        NATIONAL PARK FOUNDATION AND THE NATIONAL PARK PASSPORT

    In January 1998, the Secretary of the Interior and the Director of 
the National Park Service requested that the National Park Foundation 
undertake a strategic marketing study of the potential sale of the 
Golden Eagle Passport outside of National Parks. The Golden Eagle is an 
annual pass providing the user with entrance to federal lands charging 
an entrance fee. The pass can only be purchased at a federal site or 
from a federal office. The study focused on two questions: the 
potential untapped market for the pass and the potential net new income 
that could be generated by selling the pass outside of National Parks. 
The study, conducted by VIA International of Chicago in close 
consultation with the National Park Service and National Park 
Foundation, resulted in a recommended business plan for the 
implementation of a National Parks Passport program which we will 
reference through this testimony.
    After the historic passage of the National Parks Omnibus Management 
Act of 1998, sponsored by the honorable Chairmen here today, the 
National Park Foundation entered into a contractual agreement with the 
National Park Service to implement and operate the National Parks 
Passport program, which was created in Title VI (six), Section 602 of 
that legislation. In operating the Pass program, the National Park 
Foundation continues to use the findings of the initial business plan 
in guiding the program's operations.
    The initial business plan for the National Parks Passport program 
included higher sales and revenue figures than we currently enjoy 
today, primarily due to several key assumptions made at that time, 
including the assumption that the Pass would be sold through four key 
indirect channels--mass merchandisers, specialty retailers, specialty 
discounters and catalogs. These indirect channels were identified 
because of their ability to help us reach first-time purchasers of the 
National Parks Pass.
    It is important to note, that as part of the contract with the 
National Park Service the Foundation operates under a set of marketing 
rules established by the NPS. In many cases, these rules have the 
effect of limiting some opportunities with channels listed above and 
with other partners that could otherwise help increase Pass sales. One 
particular restriction is the inability to discount the Pass, 
especially in cases of high volume sales.
    Another limiting factor has been a concern that partnering with 
many retail outlets and other indirect sales channels might decrease 
sales at Park gates. To better understand the issue, the NPS initiated 
a study that would begin to track the impact of retail sales on in-park 
gate sales. To date, even with the limitations on the program, gate 
sales and sales through the NPF have both increased steadily over the 
years. We applaud the new legislation for looking at ways to loosen 
some of these restrictions and others.

                OPERATION OF THE NATIONAL PARKS PASSPORT

    Management of the program is much like that of a small business; 
there are many levels of operation that the National Park Foundation 
handles which I will detail here. I will direct your attention to the 
display here that shows the operational flowchart of the National Park 
Pass program. It begins with the National Park Service and the Fee 
Demonstration office. All Pass-related approval decisions and payments 
to NPF for Pass services go through the Fee Demo office. From there the 
NPF handles marketing, design, production, image selection, data 
management, and distribution. Some of this process is handled through 
third party vendors detailed here on the flow chart. The NPF has 
operational procedures in place to distribute the Pass to all federal 
land management agencies and other pass selling partners. Under the 
current pass system, the National Parks Pass can be upgraded with the 
Golden Eagle hologram that allows entrance to the areas managed by the 
other agencies. The NPF manages this distribution with Bureau of Land 
Management, Fish and Wildlife Service, the USDA Forest Service, and the 
Bureau of Reclamation.
    Following NPS guidelines, we currently partner with 3 retail 
partners to market and sell the Pass. Corporate partners at the highest 
level of partnership with the National Park Foundation, Proud Partners 
of America's National Parks, like Kodak and American Airlines are also 
involved with the Pass. As you are aware, over the past four years 
Kodak has spent almost $2 million managing a photo contest to choose 
the National Parks Pass image that has attracted over 40,000 entrants. 
Many of the entrants go on to become donors to Parks through the NPF 
while the rest get a valuable first look at private philanthropy and 
how it can benefit National Parks.
    It also should be noted that the National Park Foundation's 
management of this program does not exclude others from selling the 
National Parks Pass. We currently partner with several other 
organizations like the Outdoor Industry of America, Eastern National 
and others that offer co-branded websites with their partner 
organizations that direct consumers to the Parks Pass purchase webpage. 
The commission offered to these partners can go towards consumer 
outreach initiatives to introduce more Americans other benefits of 
outdoor activity. In addition to the human powered recreation partners 
listed above, the NPF looks to partnering with other organizations that 
share in the Park Service mission, like motorized recreational 
partners.
    These examples and flowcharts are intended to show the National 
Park Foundation--from the Board of Directors down to the staff and 
vendors--is invested in the National Parks Pass program. The Board of 
Directors of the NPF made a long term commitment to the success of the 
program. I will now describe in detail some of those successes.

                      NATIONAL PARKS PASS SUCCESS

    The National Park Foundation's management of the National Parks 
Pass is a thriving endeavor. There were certainly issues that prevented 
an entirely smooth start to the program--The NPF made a $1 million 
upfront investment for the launch of the program, which was later paid 
back to the Foundation. This investment was made to keep the program 
operating and while all costs have been recovered, before that time 
this investment was in effect a loan to the program.
    The National Park Foundation also had to twice turn to new 
legislative language to improve the operation of the program. First, to 
move the percentage of revenue for administrative costs from 10% to 
15%, and then to ensure prompt payment of Pass related expenditures 
back to the NPF from fee revenue. Previously the NPF had a $2 million 
line of credit to cover the time when expenditures went out from the 
NPF and fee money was available back to the Foundation.
    The Pass program, in conjunction with the National Park Service, 
now operates smoothly from the phone and web-based orders, to the 
production and distribution of the Passes to the parks, other land 
management agencies and our retail partners. The Foundation and Service 
have grown the program to the point where now over 400,000 passes a 
year sold. While pass sales have doubled since the beginning of the 
program there is greater potential to increase pass sales if there is a 
new approach to the marketing limitations on the Pass and again we 
applaud this legislation for taking a fresh look at this issue.
    In addition to the revenue that comes to the National Park Service 
from the Pass, the National Park Foundation gains information on Pass 
purchasers that very often allows the Foundation to develop them into 
life long donors and stewards of the National Park Service. The NPF has 
gathered over 250,000 names from those Pass holders that have 
voluntarily opted in to learn more about the Foundation's role in Park 
philanthropy and other opportunities to support parks through 
volunteerism. The Foundation is a known quantity for many existing 
donors and has a credible park-directed mission that they trust. We are 
congressionally chartered, make significant grants directly to Parks 
and manage donations efficiently--all of these operate as incentives to 
new donors.
    The goal of the National Park Foundation with regards to the Pass 
program is not just donor development driven. The program is also 
mission driven, a unique position that the NPF, as the national partner 
of the NPS, is able to fill. The mission of the NPF, as stated in the 
beginning of this testimony, is entirely consistent with the results of 
the National Parks Pass. The program not only secures private funds, 
but also increases public awareness of the National Park Service. The 
owner's manual that accompanies the Parks Pass engages Park visitors 
and encourages them to experience more of their national treasures. 
Annually we are able to strengthen the connection of almost a half a 
million Americans to National Parks through the purchase and use of a 
National Parks Pass and as we've stated there's potential for much more 
future growth.
    We believe the opportunity is there to further improve the program 
by implementing new technologies, such as credit card capability in 
every fee booth, access to account numbers by National Park Service 
personnel when visitors forget their Passes, processes that would allow 
for the collection of usage data, and automatic entry points at Park 
gates. Park visitors are increasingly tech savvy and expect a certain 
level of customer service from the Parks Pass that can be provided in 
the future.

                               CONCLUSION

    The National Park Foundation looks forward to assisting with the 
transition to the America the Beautiful Pass created with this new 
legislation and playing a central role in the development, 
implementation, and marketing of the new Pass. Together, over the past 
seven years, the Board of Directors of the National Park Foundation 
along with DOI and the NPS has made significant investments in the 
start-up and implementation of this program. These investments can be 
maximized to ensure a successful beginning to the America the Beautiful 
Pass. The infrastructure exists now for the new Pass, and we hope to 
have the opportunity to work with the Pass with this Committee, and the 
DOI and the USDA.
    Thank you for your ongoing support of National Parks and the 
National Park Foundation, and thank you again, Mr. Chairman, for the 
opportunity to appear before you today. I can answer any questions you 
may have.

    Senator Thomas. Fine. Thank you very much.
    Stephanie.

   STATEMENT OF STEPHANIE M. CLEMENT, CONSERVATION DIRECTOR, 
               FRIENDS OF ACADIA, BAR HARBOR, ME

    Ms. Clement. Good afternoon, Mr. Chairman. My name is 
Stephanie Clement and I am conservation director for Friends of 
Acadia, which is a nonprofit conservation organization located 
in Bar Harbor. Our mission is to preserve and protect the 
outstanding natural beauty, ecological vitality, and cultural 
distinctiveness of Acadia National Park. We are one of 
approximately 180 philanthropic organizations that support the 
National Park System, and since 1995, we have contributed 
approximately $4.6 million to Acadia National Park and its 
surrounding communities.
    Thank you very much for the opportunity to comment today. 
We have submitted written testimony and an addendum this 
afternoon to the committee with suggested legislative language 
that you might use when making technical amendments to the 
Federal Lands Recreation Enhancement Act.
    We have concerns in seven general areas which I will just 
briefly summarize.
    The first is pricing, which has already been discussed 
extensively. The National Parks Pass we believe is very 
attractive to park visitors because presently it is only $10 
more than an annual pass to Acadia costs right now. We are 
concerned that the America the Beautiful Pass might be less 
attractive to visitors at Acadia because we are more isolated 
than some western parks, but we encourage market studies 
overall to ensure that whatever price is set for the America 
the Beautiful Pass is set such that visitors will be able to 
continue to go to our national parks.
    Our second concern is related to transit fees. Acadia 
National Park has part of its entrance fee a transit fee that 
enables support of the island explorer bus system which, since 
its inception since 1999, has carried 1.5 million visitors 
throughout Acadia National Park and its surrounding 
communities. What we would like to see is that when folks 
purchase the America the Beautiful Pass, Acadia is able to 
retain, on top of the 80 percent, a portion of the price of 
that to cover its transit fee, which presently they do not 
retain with the National Parks Pass.
    Our third concern deals with revenue losses that might 
happen as a result of the America the Beautiful Pass. The place 
that a person purchases an America the Beautiful Pass will 
determine which agencies retain that funding. When the National 
Parks Pass was first implemented, there was an effect seen out 
at Zion and at Bryce Canyon National Park, whereby visitors 
would often go to Zion first, purchase their National Parks 
Pass there and Bryce Canyon saw a significant reduction in the 
amount of fee revenues that it collected at its gates because 
people were coming with their National Parks Pass. Our major 
concern is that when we extend that to other Federal land 
management agencies, it will increase the areas that are 
covered by these passes. And also, we are crossing 
jurisdictional boundaries such that if someone purchases a pass 
at a national forest, the Park Service may see less of a 
revenue at their entrance gates, and we are crossing USDA with 
the Department of the Interior. Experiments will be required to 
see how to correct some of those differences, and perhaps the 
swipe card that was mentioned is a possibility for correcting 
that issue.
    A fifth area that we are concerned about is related to fee 
collection. As you mentioned, in the bill there is a 15 percent 
figure that is allowed for parks to retain for the cost of 
collection. Acadia is anticipating that they will be issuing 
18,000 Golden Age passes in--actually they issued that in 2004. 
Acadia has multiple entrances and we want to make sure that 
they do not have to issue the America the Beautiful Pass to 
that level every year. They want to make sure that a pass that 
is issued in 1 year will be good for multiple years, but there 
are several implementation issues surrounding that that we have 
documented in our testimony today.
    We also want to make sure that Acadia is able to experiment 
as much as possible. Because of the multiple entrances, their 
cost of collection is higher than other parks, and we want to 
be sure that they are able to continue to have fee revenue 
collection sites at places that are accessible to visitors in 
local towns and so on.
    And the sixth area that we wanted to mention is the role of 
the National Park Foundation. We believe that the National Park 
Foundation has done a really good job in overseeing the 
National Parks Pass program. The foundation has data bases, 
partnerships, staff specialists, and organizational systems set 
up for such a large fee program, and they understand how to 
operate. So we would like to be able to see the National Park 
Foundation continue in that role.
    Then finally, the last thing that I would like to mention 
is that Friends of Acadia is pleased to be a partner of the 
National Park Service. Our donors give willingly to our 
programs because they see that it benefits and provides a 
margin of excellence to the national parks. We would like to 
make sure that the fee program that is implemented does its 
absolute best to make sure that the parks are able to retain 
the maximum amount of fees that they can. We do not want to see 
that there are fewer fees being generated at our national parks 
and retained by Acadia in exchange for any donations that we 
might give. That is a disincentive to our donors.
    Thank you very much for the time to provide testimony 
today. We appreciate it. Thank you.
    [The prepared statement of Ms. Clement follows:]

  Prepared Statement of Stephanie M. Clement, Conservation Director, 
                   Friends of Acadia, Bar Harbor, ME

    Mr. Chairman and honorable members of the Subcommittee, my name is 
Stephanie Clement, and I am Conservation Director for Friends of 
Acadia, an independent non-profit conservation organization in Bar 
Harbor, Maine.
    Friends of Acadia is one of 180 philanthropies helping the National 
Park System. Since 1995 alone, Friends of Acadia has granted $4.6 
million to Acadia National Park and community entities.
    I want to thank you and your committee, Senator, for the former fee 
demonstration program. At Acadia, as you know, Friends matched $4 
million in fees with $9 million in private fundraising to create the 
first privately endowed trail system in the national parks.
    Thank you also for the opportunity to speak today on the Federal 
Lands Recreation Enhancement Act. With your permission, I will submit 
written testimony for the record and summarize my remarks.

                              INTRODUCTION

    Friends of Acadia has concerns about the America the Beautiful Pass 
that we hope you will address through technical amendments before the 
law is implemented.
    The concerns lie in seven areas: pricing, transit fees, agency 
revenue sharing, fee retention policies, fee collection costs, fee 
experimentation, and the role of the National Park Foundation.
    1) Pricing. The America the Beautiful Pass could be attractive for 
visitors to federal lands but will be successful only if it is 
thoroughly market-tested and priced accordingly. If the price is set 
too high above those of some existing passes, the new pass becomes less 
attractive.
    Friends of Acadia would hate to see the elimination of the proven 
National Parks Pass in exchange for a broader pass that is overpriced 
for the public it is trying to serve.
    The National Parks Pass has been popular at Acadia because it costs 
$50.00, only $10.00 more than the annual entrance pass, affording 
access to many parks at little marginal cost.
    2) Transit Fees. We ask that 100% of the transit fee charged at 
some parks, including Acadia, be added on top of the 80% of fee revenue 
that parks can retain from the American the Beautiful Pass, as is the 
case with the transit fee in relation to a park's standard entry fee.
    3) Revenue Sharing Among Agencies. Some land management agencies 
could see significant revenue losses created by the America the 
Beautiful Pass. When the National Parks Pass was implemented, Bryce 
Canyon National Park witnessed a decline in fees collected because 
visitors often traveled to Zion National Park first, where they 
purchased the National Parks Pass.
    Adding other federal lands to the equation will complicate matters, 
particularly where a Department of Agriculture unit affects the fee 
revenues at an Interior Department site or vice versa. Predicting where 
these effects will be seen and remedying them through multi-agency pass 
agreements or revenue redistribution will be a difficult process, 
involving multiple years of data collection and experimentation with 
different scenarios.
    4) Fee Retention. Friends of Acadia's fourth concern is that the 
Secretary can reduce the proportion of fees retained at a federal land 
unit from 80% to 60% if she deems that the unit has collected more 
revenues than can be expended on site for reasonable needs in that 
fiscal year.
    Acadia National Park has managed its fee collection and 
expenditures responsibly. $12.9 million net revenues have been retained 
since the recreational fee demonstration program was initiated in 1997, 
and $9.2 million has been spent on important projects, such as trail 
rehabilitation, upgrades to the visitor center, handicap accessibility, 
etc. Some projects require multi-year planning and allocation. The 
possibility that the Secretary could reduce Acadia's fee revenues to 
60% in any year will make planning complex, multi-year projects very 
difficult.
    Friends of Acadia recommends removal of the 60% provision. If it 
must remain, we ask that a multi-year time lag be built into 
implementation so that a park or other federal unit can prepare for 
anticipated losses of revenue.
    Regarding philanthropy, there will be a disincentive to private 
donors if their charitable contributions to the park increase while the 
federal government, which has the ultimate responsibility for Acadia, 
reduces the amount that it appropriates or allows Acadia to retain.
    5) Fee Collection Costs. The 15% overhead limitation is not 
flexible enough for parks that have complex collection operations. 
Acadia, for example, has multiple private entrances, and fee collection 
is inherently expensive and manpower-dependent. The park is trying to 
increase visitor compliance with fee requirements, but the 15% 
limitation will reduce the Park Service's ability to find creative ways 
to encourage compliance. The law should account for such realities.
    If the America the Beautiful Pass for older people and individuals 
with disabilities is re-issued annually, we think the costs to 
individual parks would increase significantly. Acadia sold, or 
exchanged for plastic cards, about 18,000 Golden Age passes in 2004, 
which are good for a lifetime. If the park must now reissue 18,000 free 
passes every year, administrative costs will skyrocket.
    Also, unless the replacements for the Golden Age and Golden Access 
passes are conspicuously different from one another in color and 
design, fee collection will be slower and more complicated per 
transaction, backing up traffic at entry stations. Also there will be 
greater possibility for errors or even fraud.
    6) Fee Experimentation. The old fee demo program encouraged parks 
to experiment with fee structures, pricing, administration, etc. The 
new law does not. This will impede parks like Acadia as they try to 
adapt to change in visitor populations, travel patterns, etc. We 
recommend that the spirit of experimentation be included in the new 
law.
    7) Role of the National Park Foundation. Our final concern is: who 
will manage and market the America the Beautiful Pass?
    Friends of Acadia believes that the Congressionally chartered 
National Park Foundation is best suited to oversee the America the 
Beautiful Pass program, and should be specifically named in the 
technical language of the law. Having successfully managed the National 
Parks Pass program from its initiation, the Foundation already has the 
databases, partnerships, staff specialists, culture and organizational 
systems for such a large national effort, and understands how to 
operate within federal guidelines. The foundation has direct and 
extensive managerial experience and should implement the pass. To re-
start the program from scratch with a new manager would be inherently 
inefficient and an unjustifiable waste of funds and start-up time.
    Friends of Acadia is proud to be among the many partners of the 
National Park Service. Thanks you for the opportunity to testify. I am 
happy to answer any questions you might have.
                                 ______
                                 
  Suggested Language Changes for Technical Amendments to the Federal 
                    Lands Recreation Enhancement Act

    Friends of Acadia respectfully asks that the following the 
following language changes be made in the law. In some cases we have 
cited the relevant sections; in others we have merely provided language 
to be placed where the Committee deems it most appropriate.

                                 INTENT

    ``It is the intent of Congress that the Act shall encourage 
experimentation in fee structure, pricing, administration, and related 
matters, by the affected agencies and individual units or areas, to 
create flexible fee schedules that are fair to the visitor and can be 
efficiently administered by a unit or area.''

                             ADMINISTRATION

    ``The National Park Foundation shall administer the America the 
Beautiful Pass in consultation with the Secretary. The foundation is 
authorized to recover from fee revenues pits-administrative costs plus 
a reasonable amount of overhead to be determined in consultation with 
the Secretary.''

                                PRICING

    ``The pricing schedule of the America the Beautiful Pass shall be 
set according to market rates. Test marketing shall be undertaken from 
time to time to determine optimum pricing levels.''

                              DISTRIBUTION

    Preferred action: In Section 807, strike entire paragraph (c), (1), 
(B), beginning ``REDUCTION-- . . .''
    Or . . . 
    Substitute this alternative to paragraph (B): ``REDUCTION--The 
Secretary may reduce . . . but not below 70 percent, provided that the 
reduction shall take effect in the fourth fiscal year after the fiscal 
year in which the Secretary determines that the revenues collected at 
the unit or area exceed the reasonable needs of the unit or area for 
which expenditures may be made.''

                          FEE COLLECTION COSTS

    In Section 808, paragraph (c), ``Administration, Overhead, and 
Indirect Costs,'' add this language at the end of the paragraph: ``For 
units or areas that the Secretary determines have complex fee 
collection circumstances, the limitation shall be set at 25 percent of 
total revenues collected.''

                              TRANSIT FEE

    ``At a unit or area that charges a transit fee, 100 percent of the 
transit fee shall be retained in addition to the amount retained in fee 
collections.''

                               MONITORING

    ``The Secretary shall annually monitor the fee programs established 
under this Act and report the findings to the Committee. The 
Secretary's report shall include, but not be limited to,`an analysis of 
total revenues and expenses program-wide and at each affected unit or 
area, an assessment of the impacts of the program on visitation, 
recommendations for improving the program's effectiveness, and other 
relevant information. The National Park Foundation shall annually 
report to the Committee on matters relevant to the foundation's 
administration of the America the Beautiful Pass program.''

    Senator Thomas. Well, thank you. I thank both of you.
    Jill, I do not think I am quite clear on this. The 15 
percent that is administratively used is used by the park. Is 
that correct?
    Ms. Nicoll. Yes. All the fees collected go directly to the 
parks and then the parks allocate the percentages back to us 
and to the administration of the program.
    Senator Thomas. I see. So the money you get out of it is 
out of that administrative portion that the parks have.
    Ms. Nicoll. Right, and it is just direct reimbursement for 
our costs.
    Senator Thomas. I see.
    You have been doing this then for parks only.
    Ms. Nicoll. Yes. Well, we also managed that Golden Eagle 
upgrade, and so we managed the distribution of the upgrade, the 
hologram sticker, to the other land management agencies. So we 
do have that distribution network already in place.
    Senator Thomas. How do you divide the fee among the various 
participating----
    Ms. Nicoll. Once again, we leave that to our partner, the 
National Park Service.
    [Laughter.]
    Senator Thomas. I see.
    Is there a formula for that?
    Ms. Nicoll. I do not know. Do you?
    Ms. Moore. The hologram sales actually are kept by each of 
the agencies that receive the hologram. So there is no cost to 
the BLM or Forest Service for the holograms. But then when they 
upgrade the passes to the visitors, $15 stays right at the 
agencies where the hologram was sold.
    Senator Thomas. So if I bought one at the Forest Service 
for $50 or whatever, but I visited the parks 10 times and the 
forest once, that still would be the distribution system.
    Ms. Moore. Right now, that is the only way it is sold. So 
if you purchased the National Parks Pass in the park, the 
majority of the revenue stays at the park, 80/20, with 15 
percent off the top that goes toward overhead costs. But let us 
say you have a National Parks Pass at the Park Service and you 
want to upgrade it to the Golden Eagle, wherever you go to make 
the upgrade, whether it is in the park, then the $15 stays in 
the Park Service. If you upgrade at a BLM site or a Forest 
Service site, the $15 will then go to that agency.
    Senator Thomas. Could you tell us who you are so we could--
--
    Ms. Moore. I am sorry. I am Jane Moore, the Fee Program 
Manager from the National Park Service.
    Senator Thomas. Then, Jill, your organization would be 
interested and be prepared to manage it as it applies to five 
different bureaus?
    Ms. Nicoll. Absolutely, yes.
    Senator Thomas. You have done some of this before.
    Ms. Nicoll. Yes, and we feel we can just expand the current 
infrastructure to accommodate the expansion of the program.
    Senator Thomas. The legislation that established the park 
pass stated, the Secretary may enter into cooperative 
agreements with the National Park Foundation or other 
interested parties to provide for the development and 
implementation. The Secretary shall take such actions as are 
appropriate to actively market the passports. Would the Park 
Foundation support such language for the America the Beautiful 
Pass?
    Ms. Nicoll. Yes, absolutely we would.
    Senator Thomas. So if I understand what you are saying, 
why, even though this will be expanded some and so on, that 
what you have been doing is generally applicable to what you 
expect to be doing in the future.
    Ms. Nicoll. Yes. It is just an expansion of the current 
operation, not recreating the whole operation to accommodate 
this new program.
    Senator Thomas. What is your reaction to trying to get some 
method of distribution fairly among the agencies in terms of 
where it was paid and where it was used?
    Ms. Nicoll. Well, really, the only way to solve that is 
with technology and to track usage. That would require an 
investment in the technology itself, but that is really the 
only way to fairly allocate based on usage and point of 
purchase.
    Senator Thomas. You have done some market analysis and so 
on. The Senator expressed some concern about the additional 
cost. What have you found in your market analysis?
    Ms. Nicoll. We have received very few complaints at the $50 
price point level, and since that is the majority of the passes 
sold, obviously the consumer is comfortable with that $50 level 
because it has been in place quite a long time and they are 
used to it. Consumers notice when prices go up.
    Senator Thomas. Yes.
    Do the passes generally come from local people who go to 
the same park a dozen times, or can you differentiate?
    Ms. Nicoll. We cannot differentiate at this time.
    Senator Thomas. So people might be traveling all over the 
country and going to each one once, for that matter.
    Ms. Nicoll. Right.
    Senator Thomas. Again in your marketing background, what 
would be your anticipation in terms of the expansion if we go 
into five different bureaus?
    Ms. Nicoll. In what respect?
    Senator Thomas. In the sale numbers.
    Ms. Nicoll. It depends on the price. My understanding is 
that they are purchasing the pass for national park visitation 
predominantly right now. I think it would begin to be a 
disincentive, as Stephanie pointed out, if suddenly the 
incremental cost to the expanded pass somehow became 
unreasonable, especially compared to the individual park fees 
as you enter. So I think the price is a very, very important 
issue in terms of the success of the new pass.
    Senator Thomas. Stephanie, in your testimony, you mentioned 
15 percent administrative costs might be unreasonable for some 
parks. What is the cost for Acadia and what changes would you 
anticipate to reduce it?
    Ms. Clement. We sat down with the Park Service prior to 
coming here today, and the figures that we had were that since 
the inception of the fee demonstration program, they have 
retained $12.9 million in fee revenues and $9.2 million of that 
has been used for on-the-ground projects such as the trail 
rehabilitation, visitor center upgrades, and so on. And that 
leaves a figure of $3.2 million that they have used since the 
very beginning for the costs of fee collection. If you look at 
it overall, it comes out to almost 25 percent.
    The reason why it is so high, as I mentioned, Acadia does 
have multiple entrances. So they have had to find unique ways 
of accessing the visitors. It is not like there are individual 
gates that people can go through. There really is only one 
entrance point that is on the main road where people go through 
in their cars and purchase passes. The other way that Acadia 
has had to sell their passes is through individual visitor 
enters downtown, through working with L.L. Bean to try to sell 
the National Parks Pass at the L.L. Bean retail store, which I 
would say actually receives more visitation than Acadia 
National Park does. So that is why the cost of collection is 
much higher at Acadia.
    Senator Thomas. I see.
    We have talked about initiating an advisory board for the 
recreation fee. I presume Friends of Acadia would be willing 
and interested in serving on such a board.
    Ms. Clement. Actually we feel that Acadia National Park 
already has an advisory board in place that works very well. It 
is called the Acadia National Park Advisory Commission, which 
was set up when the boundary legislation passed in 1987. We are 
not a member of that. The membership is made up of 
representatives from each of the border towns next to Acadia 
and then also some appointed officials by the Department of the 
Interior and then also the Governor has some appointees to that 
commission as well. So we think that is probably the 
appropriate commission for Acadia National Park.
    Senator Thomas. We are talking about an advisory board for 
the whole Nation.
    Ms. Clement. Oh, okay.
    Senator Thomas. So we would set up something that fits 
Teton Park as well as it does Acadia.
    Ms. Clement. Sure. Yes. I am sure we would be happy to 
serve on that.
    Senator Thomas. Do you believe, Jill, that you will be 
ready to go implement this in 2007?
    Ms. Nicoll. If we were given the opportunity and 
notification soon enough. The parks pass photo contest actually 
starts earlier than one would logically think it would need to 
based on the production schedule. So we are currently preparing 
the materials for the 2007 photo contest right now. Yes, if we 
were to have the privilege to manage the America the Beautiful 
Pass program moving forward, like I said, it would just be an 
expansion of our current operation, a name change, additional 
production, but it would not be a hardship.
    Senator Thomas. The first year you could go ahead with your 
park that you already started with the photo I suppose, could 
you not?
    Ms. Nicoll. Right, as long as the other land agencies did 
not get mad.
    Senator Thomas. Next year you can get BLM on there.
    Ms. Nicoll. Right.
    [Laughter.]
    Senator Thomas. What is your projection on--well, I guess 
you already responded to it. What kind of possibility of growth 
in sales do you see if all these five agencies are involved? Do 
you think that is going to have an impact particularly?
    Ms. Nicoll. The real potential for sales growth is actually 
outside the gates. I think with some additional leeway on some 
of the marketing restrictions, we could increase the retail 
sales. As our numbers show, people would purchase the pass 
without using the full value of the pass, purchase it as a 
gift, purchase it for a number of different reasons. So you 
could have increased sales at the gate while really increasing 
the revenue pie, if you will, by selling more in the outside 
retail markets. People would purchase this just because it is a 
way of showing their support for public lands. And we are still 
convinced that that theory holds true.
    Senator Thomas. I read something the other day. I cannot 
remember specifically. I think they were some comments by 
retired park employees that they thought the parks were getting 
too commercial in terms of their advertising and marketing. How 
do you feel about that?
    Ms. Nicoll. I respectfully disagree.
    [Laughter.]
    Senator Thomas. Well, I certainly thank you. I think we 
have a challenge before us, of course, to make this program 
work as well as possible. There will be some changes in terms 
of expanding it to the other agencies. There will always be 
some difference of view about the level of charge, of course, 
and so on, but I do think that the idea of having public 
meetings, as the Secretary said they were going to have, will 
be good input. Of course, you can usually tell from the sale of 
things by the volume as to whether you have exceeded the price 
and so on.
    So we certainly thank you for being here and look forward 
to working with both of you.
    Ms. Nicoll. Thank you, Senator.
    Ms. Clement. Thank you.
    Senator Thomas. We will adjourn the committee.
    [Whereupon, at 3:46 p.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                                         Friends of Acadia,
                                     Bar Harbor, ME, March 9, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: Thank you once again for the opportunity to 
testify on February 17, 2005 regarding the Federal Lands Recreation 
Enhancement Act authorized in Public Law 108-447. We appreciate your 
concerns and interest in the fee program, and we look forward to 
working with the Subcommittee to ensure the best possible fee program 
to benefit the national parks. I am writing in response to the 
questions you posed for the record regarding Friends of Acadia's 
testimony.
    Senator Thomas, thank you again for your time and attention to 
national parks and fee issues. Friends of Acadia greatly appreciates 
the opportunity to provide our thoughts on the implementation of the 
Federal Lands Recreation Enhancement Act. If there is any way that we 
can be of further assistance, do not hesitate to contact us at (207) 
288-3340 or via e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="65161100150d040b0c002503170c000b01160a03040604010c044b0a17024b">[email&#160;protected]</a>
            Sincerely,
                                      Stephanie M. Clement,
                                              Conservation Director
[Enclosure.]
    Question 1. In your testimony, you mention that the 15% 
administrative cost may be unreasonable for some parks.What is the 
administration cost for Acadia and what changes to you anticipate being 
made to reduce the cost to 15%?
    Answer. There are three costs associated with the fee program at 
Acadia: A) the administrative cost of managing the fee program; B) the 
direct cost of collection; and C) the costs of planning, design, and 
supervision of projects implemented using fee revenues.
    A) Administrative Costs: Acadia National Park staff estimate that 
the Park's administrative costs related to the fee program are 
approximately 5% of the total revenue retained. These figures are well 
under the 15% figure, so the Park could maintain the present fee 
program.
    B) Cost of Collection: Acadia National Park's direct cost of 
collection since the initiation of the recreation fee demonstration 
program in 1997 has been almost 25% of the total revenue retained at 
the Park. Acadia has retained approximately $12.9 million in entrance 
fees since 1997, spent $9.2 million on approved projects, and expended 
$3.2 million to cover the cost of collection. Fee collection costs are 
higher at Acadia than at other national parks because Acadia has 
multiple entrances and fee collection points. Acadia accesses visitors 
at normal locations (visitor centers, campgrounds, and entrance 
booths), but is also forced to be innovative in selling passes at other 
locations, such as the Island Explorer bus information center. If 
Acadia were required to cut the cost of collection to 15%, the Park 
would either have to reduce operating hours at fee collection sites or 
close some of these locations altogether, both of which would 
ultimately hurt fee retention at the Park.
    C) Planning, Design, and Supervision Costs: Acadia National Park 
staff closely follow the guidelines for project administration 
established by the National Academy of Public Administration. These 
costs include items such as planning, design, and supervision for all 
the construction/rehabilitation projects undertaken with the fee 
demonstration program.
    Question 2. How many visitors to Acadia National Park use the 
annual pass to obtain entry? How many annual passes did visitors 
purchase at Acadia National Park last year?
    Answer. According to Kevin Langley, Fee Collection Manager at 
Acadia National Park, the Park sold 3,049 National Park Passes in 2004, 
3,666 annual passes specific to Acadia, and 10,066 Golden Age passes 
(some of which were replacements for older paper versions of the 
passes).
    For the first time last year, Acadia used swipe card technology to 
track how many visitors arrived at the entrance station on the Park 
Loop Road with National Park Passes or Golden Age passes in hand. The 
information was not retained locally, however, and has been sent to 
Marge Koehler of the National Park Service in Washington, who is 
reportedly tabulating the results from Acadia and other national parks. 
We suggest that the Subcommittee contact her directly for more 
information.
    Question 3. Has the National Park Service or Department of Interior 
initiated efforts to form an Advisory Board to oversee the recreation 
fee program in the area of Acadia National Park? Does Friends of Acadia 
have any desire to serve on such a board if asked?
    Answer. Neither the National Park Service nor Department of 
Interior has initiated efforts to form a local advisory board to 
oversee the recreation fee program at Acadia. However, there is a 
Congressionally established group, the Acadia National Park Advisory 
Commission, that oversees all areas of park management, including fees. 
The Acadia Advisory Commission is comprised of representatives from 
each of the towns bordering the Park, as well as at large appointees of 
the Secretary of the Interior and the Governor of Maine. Friends of 
Acadia feels that this commission adequately serves all local oversight 
functions. However, were a national advisory board established to 
oversee implementation of the fee program for all parks, Friends of 
Acadia would be honored to serve on such a board.
    Question 4. Given your concerns regarding the 60% provision do you 
have specific recommendations prepared to implement a time lag?
    Answer. Acadia National Park has been circumspect in obligating and 
expending funds from the recreation fee demonstration program. Friends 
of Acadia's concerns related to the 60% provision stem from two areas--
the fact that many fee demo projects require multi-year planning and 
expenditures and the possibility that reducing the amount of fees 
retained at Acadia will be a disincentive for Friends of Acadia's 
donors to contribute. An atmosphere of decreasing federal investment in 
the Park is not conducive to charitable giving.
    One of the most successful uses of fee revenues at Acadia has been 
the restoration of the trail system. Friends of Acadia contributed over 
$9 million in private funds to match $4 million in Park Service funds 
(primarily fee demonstration monies dedicated to trail rehabilitation) 
to restore and permanently endow Acadia's trails. The Park Service 
methodically planned how to use fee revenues over multiple years to 
match Friends' contributions. If the Secretary were to reduce the 
amount of fees retained at Acadia to as low as 60% in any given year, 
this would be detrimental to the Park's ability to engage in multi-year 
projects such as this.
    Similarly, many projects may be more costly than a national park is 
able to fund out of one year's fee collection revenues. If a park were 
to save fee revenues over several years to tackle these costly 
projects, it may create a false appearance of collecting more fees in a 
year than could be reasonably expended. Friends of Acadia is concerned 
that this may trigger the provision to allow the Secretary to reduce 
the park's fee retention to as low as 60%, thereby harming the ability 
of that park to accomplish more costly projects.
    Friends of Acadia recommends that if the 60% provision must remain 
in the Federal Lands Recreation Enhancement Act, that at least a two-
year time lag be built into implementation. For example, if the 
Secretary were to decide that Acadia's 2004 fee revenues were higher 
than necessary, she should wait until 2006 to asses the Park the 20% 
loss in the money they can expect to expend from the fee program 
revenues. This will give the Park two years to adjust planned fee 
projects. We also recommend that the Secretary average the fee revenues 
over the two year time lag to determine the 20% loss to the Park. This 
will be fairer to both the national level and the local park depending 
on fluctuations in visitation and entrance fee revenues. Keep in mind 
that a reduction from 80% to 60% in fee revenues represents a 25% cut 
in a park's spending power for projects.
                                 ______
                                 
                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                    Washington, DC, March 29, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are responses to questions you 
submitted following the February 17, 2005, hearing regarding the 
``Federal Lands Recreation Enhancement Act authorized in Public Law 
108-447.''
    Thank you for the opportunity to provide this material for the 
record.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                     Questions From Senator Thomas
    Question 1. Are you aware of any specific sites where fees have 
been collected during the demonstration program, but the fee would no 
longer be applicable because of criteria specified in the new law?
    Answer. One of the short-term tasks of the Fee Collection/Fee 
Expenditure Working Group is to ensure that all sites that charge 
recreation fees conform to the infrastructure and other requirements of 
the new law. The NPS currently has 150 parks that collect an entrance 
fee and 121 parks that collect a ``use'' fee or what is now called an 
``expanded amenity fee'' and 209 parks that collect both. The NPS has 
only one site in Alaska that may cease collecting fees but all other 
NPS collecting sites will remain in the program. There may be however, 
some adjustments concerning whether a park charges an entrance fee or 
an expanded amenity recreation fee. Some fees for BLM, FWS, and FS have 
been eliminated or changed in scope. At some sites, the agencies are 
substantially decreasing the area in which fees are required. For 
example, some sites no longer charge entrance fees to an entire 
national recreation area, but instead may charge a standard amenity fee 
at the localized developed area with the enhanced visitor amenities. At 
other sites, fees have been changed, such as eliminating fees for 
children under 16 years of age.
    Although the review of all sites continues, the following are 
examples of sites that have made changes to their fees under FLREA:

  <bullet> Gavin's Point National Fish Hatchery (FWS) no longer charges 
        an entrance fee.
  <bullet> Arapaho National Recreation Area (Forest Service) no longer 
        charges an entrance fee for the entire area, but may charge a 
        standard amenity recreation fee at localized developed sites.
  <bullet> At Imperial Sand Dunes (BLM), recreation fees for two 
        overlooks and a trailhead were eliminated.
  <bullet> Quake Lake Visitor Center and Lewis and Clark Visitor Center 
        (Forest Service) no longer charge for children under 16 years 
        of age.

    Question 2. What is the timeline for implementing P.L. 108-447 and 
will the public be involved in the process?
    Answer. The longest time frame in the implementation process will 
likely be to develop the America the Beautiful Pass. The National Pass 
Working Group has set a target date of 2007, taking into consideration 
many factors, including the tremendous public interest in the pass, the 
potential need to conduct market surveys, and the long lead time 
required for the image competition. We would like to work with the 
National Park Foundation and learn from their expertise and experience 
in running a successful image competition. We recognize that the long 
lead time involved in administering an image competition and producing 
the pass may require that decisions be made shortly in order to meet a 
2007 target date. We are exploring different options to facilitate 
meeting the 2007 target date.
    Discussion of these and other implementation issues began almost 
immediately after President Bush signed the FLREA into law on December 
8, 2005. Within nine days of the law being signed, the Interagency Fee 
Council convened and approved an Implementation Plan. To carry out the 
implementation, a steering committee composed of high level (SES) 
managers from each agency and interagency workgroups for the America 
the Beautiful Pass, Fee Collection/Fee Expenditures, Recreation 
Resource Advisory Committees (RACs)/Public Participation, and 
Communication were formed.
    The working groups are drafting guidance, developing detailed 
action plans, including timelines, and discussing key issues to ensure 
compliance with the new law. Because of significant interest by the 
public and partner organizations, the National Pass Working Group has 
hosted two ``listening sessions'' to provide the public and members of 
the recreation community with an opportunity to share ideas about the 
implementation of the America the Beautiful Pass. Additional sessions 
may be scheduled, as needed. We will keep the Congress informed over 
time as we continue to implement the new legislation.
    Question 3. Is the 15% limitation on cost of administration an 
achievable level or should P.L. 108-447 be amended to provide a more 
reasonable level?
    Answer. Over the past few years, the Departments have been working 
to align reporting categories for costs and expenditures. This effort 
will continue for the Congressional reports required under FLREA. Once 
we better identify and align consistent definitions of cost categories, 
we will be able to determine if an amendment is necessary. We look 
forward to continuing to discuss this issue further with the Committee.
    Question 4. Who will manage the America the Beautiful Pass? The new 
law enacted with the 2005 Appropriations Bill does not specify. The old 
law mentioned the National Park Foundation by name.
    Answer. Decisions on who will manage the America the Beautiful Pass 
will be made as part of the overall decision making on how best to 
implement the pass, as described under the new law. We have set a goal 
of implementing the new pass in 2007. We have created an interagency 
working group comprising representatives of each bureau with expertise 
in recreation fees and previously existing recreation passes, as well 
as representatives with procurement and related legal expertise. Unlike 
the law creating the National Parks Pass, FLREA does not identify any 
particular entities by name. The preliminary plan is to select an 
organization or organizations to develop and implement the America the 
Beautiful Pass through an open competition. As we design that 
competition, we will draw upon the National Park Pass experiences of 
the National Park Foundation as we develop appropriate performance 
goals to be delineated in any request for proposals. We are evaluating 
what the most appropriate acquisition strategy is at this time but 
anticipate that a key goal will be to include consideration of how any 
proposal for administering and marketing the pass affects opportunities 
for volunteerism and partnerships.
    During the transition, we are interested in continuing to work with 
the National Park Foundation on the development of the National Park 
Pass and the annual image competition.
    Question 5a. The Secretary has the authority to raise the fee under 
the new law. Will the cost of the America the Beautiful Pass increase?
    Answer. The price of the America the Beautiful has not been 
determined. In the three months since enactment of FLREA, the National 
Pass Working Group has developed draft guidance, developed action 
plans, and discussed key issues to ensure compliance with the new law. 
One of the three broad issue areas identified by the National Pass 
Working Group involves issues associated with pricing. We would expect 
to carefully evaluate price in relationship to value, impact on 
visitation, and related considerations.
    Question 5b. Will a market analysis be conducted prior to raising 
the cost of the pass? The public may find it more economical to forego 
the pass and pay the individual fees if the cost of the pass increases 
substantially. A market analysis is recommended to determine public 
reaction to a fee increase.
    Answer. The National Pass Working Group will take into 
consideration past studies and surveys, data related to pricing of 
other national passes, and the relationship of the pass to other 
recreation fees and site-specific passes. Other market analyses, 
surveys, and studies, may be conducted as necessary.
    A key goal will be to ensure that the America the Beautiful pass 
remains a good value for visitors to our federal lands. We recognize 
that setting the price of the pass is not an exercise to raise the 
maximum amount of revenue possible. Price setting needs to take into 
account the use patterns, other existing fees, and theextent to which 
the pass could be used as a tool to educate and broaden the American 
public's knowledge and experience about our federal recreational lands.
    Based on a very preliminary analysis of National Parks Pass use 
data, the price of the pass may particularly affect higher fee parks, 
parks with mandatory transportation systems, and parks with significant 
National Parks Pass use. We also recognize that pricing can affect 
revenue generation, which is important to a specific site's motivation 
to market and sell the pass. With the intensive involvement of each 
bureau's fee experts, we expect to be able to identify key challenges 
and address them through a consensus process among the bureaus while 
also taking into account public input, market analysis, and other 
relevant information.
    Question 6. Will the NPS continue to receive the same level of 
funding from the new pass or will the funds be distributed to other 
bureaus in a manner that causes the NPS share to decrease?
    Answer. The agencies are working together to determine a revenue 
distribution system that is fair and is based on the best available 
data. In the past, the NPS has played a substantial role in the 
marketing and sales of passes. One challenge in implementing a new pass 
will be to maintain appropriate incentives for individual sites and 
agencies to sell the pass, while taking into account relevant visitor 
use and other data. In the future, electronic swipe technology may be 
developed to assist in decisions regarding how to distribute the 
revenue to sites.
    Question 7. The Secretary has the authority to reduce retention of 
recreation fees for a given area from 80% to 60% when reasonable needs 
are exceeded. Will there be criteria developed defining what exceeding 
a reasonable need is?
    Answer. All of the working groups are evaluating FLREA to determine 
where additional guidance may be needed. To the extent possible, the 
assessment of whether an area's reasonable needs are exceeded should be 
evaluated using a number of existing measures within each agency, 
rather than creating another layer of evaluations. For example, to 
determine the condition of facilities at any given unit, the NPS has in 
place a facility management system that ``grades'' facilities and other 
assets based on a facility condition index (FCI). Similarly, BLM is 
implementing the Facility Asset Management System (FAMS) to plan and 
track facility-specific maintenance needs and costs, to prioritize and 
monitor maintenance activities, and to prevent a recurrence of 
maintenance backlogs in the future.
    Question 8. What steps will DOI take to ensure the new pass is 
implemented without confusion or loss of customer service during the 
transition period?
    Answer. We will take steps to ensure a smooth transition in 
implementing the new pass. FLREA specifies that existing passes will 
continue to be sold until the new pass is available. Existing passes 
remain valid until expired, lost or stolen. As the time draws near, the 
National Pass Working Group will work with the Communications Working 
Group to ensure that the public is fully informed on the details of the 
transition. During the coming months and years, we anticipate keeping 
the public informed and seeking input on the implementation process 
through additional stakeholder meetings, Congressional briefings, and 
web postings.
    Question 9. Does the Department anticipate promulgating regulations 
through the Federal Register to implement the recreation fee program 
established in P.L. 108-447?
    Answer. All of the working groups are in the process of evaluating 
FLREA to determine where regulations, guidelines, or additional 
criteria may be needed to ensure full and consistent implementation of 
the Act.
                                 ______
                                 
        Responses of the National Park Foundation to Questions 
                       From Senator Craig Thomas
    Question 1. What was the single most difficult problem to overcome 
when developing the national park pass program?
    Answer. The most challenging aspect of developing the National 
Parks Pass program was identifying and documenting all the government 
agency systems, then building customized ordering (call center), 
billing, and accounting systems for each of the five bureaus, as well 
as Park cooperating associations. Completing this took 18 months prior 
to the launch of the pass in April 2000 and is now running efficiently.
    Question 2. Is your organization interested in and prepared to 
manage the America the Beautiful Pass Program as it applies to five 
bureaus?
    Answer. Yes.
    Question 3. The original legislation that established the Park Pass 
stated. ``The Secretary may enter into cooperative agreements with the 
National Park Foundation and other interested parties to provide for 
the development and implementation of the national park passport 
program and the Secretary shall take such actions as are appropriate to 
actively market national park passports and stamps.'' (Section 602(d) 
National Park Passport Program). Would the National Park Foundation 
support such language for the America the Beautiful Pass?
    Answer. Yes.
    Question 4. The current nationwide photo contest is conducted by 
Kodak. Is Kodak interested in continuing to participate in a program 
involving more than just the National Park Service?
    Answer. The NPF consulted with Kodak on this issue, who indicated 
interest in continuing to find out more about the American the 
Beautiful Pass Program and its role in a photo contest to choose the 
Pass image. A future commitment to the contest would continue to be 
part of a larger commitment to the NPF.
    Question 5. Based on market analysis conducted by the Foundation, 
what is the maximum amount the general public will pay for an annual 
pass?
    Answer. The market analysis conducted by the NPF in 1998 focused on 
visitation patterns and a price point that would maximize consumer 
incentive to purchase a Parks Pass, based on existing daily park 
entrance fees at that time. That price, at that time, was near $50 for 
a National Parks Pass and $65 for a Golden Eagle Pass.
    Question 6. How many additional passes do you anticipate selling 
when the program is expanded to five bureaus?
    Answer. This is largely dependent on the price of the new Pass, and 
changes to the marketing guidelines. Between the National Parks Pass 
and sales of the upgrade to the Golden Eagle Pass, there are 
approximately 425,000 total Passes sold. The NPF has grown sales of the 
Pass 100% since its inception and flexibility in existing marketing 
restrictions would likely lead to a greater increase in Pass sales.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
